U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Eddie Houston Jr v. United States of America,
S.Ct. No. 20-1479

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 19,
2021, and placed on the docket on April 21, 2021. The government’s response is due on May
21, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 21, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1479
HOUSTON, EDDIE JR.
USA

YAIRA DUBIN
O'MELVENY & MYERS LLP
TIMES SQUARE TOWER
7 TIMES SQUARE
NEW YORK, NY 10036
212-728-5946
JEFFREY L. FISHER
O'MELVENY & MYERS LLP
2765 SAND HILL ROAD
MENLO PARK, CA 94025
650-473-2633
JLFISHER@OMM.COM
SMITA GHOSH
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST. NW
STE. 501
WASHINGTON, DC 20036
202-296-6889
SMITA@THEUSCONSTITUTION.ORG
GIA KIM
DEPUTY FEDERAL PUBLIC DEFENDER
321 EAST 2ND STREET
LOS ANGELES, CA 90012-4202
213-894-4408
GIA_KIM@FD.ORG
213-894-0081(Fax)

DAVID M. PORTER
ASSISTANT FEDERAL DEFENDER
801 I STREET, 3RD FLOOR
SACRAMENTO, CA 95814
916-498-5700
DAVID_PORTER@FD.ORG

